Office of
Inspector General



               OPERATING AND PERFORMANCE PLAN

                  FISCAL YEARS 2006 AND 2007
Farm Credit Administration                                  Office of Inspector General
                                                            1501 Farm Credit Drive
                                                            McLean, Virginia 22102-5090




August 22, 2005


The Honorable Nancy C. Pellett
Chairman and Chief Executive Officer
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090

Dear Chairman Pellett:

The enclosed document is the Office of Inspector General’s (OIG) Operating and Performance
Plan and Budgets for Fiscal Years 2006 and 2007 (OPP). The OIG’s mission has been recast.
However, our objectives and goals remain the same.

We have updated the OPP and its audit plan to remain current with the challenges facing FCA
and the recent changes in FCA’s organization and operations. The audit plan is a fluid
document that may be updated as the year progresses. It is from the audit plan that the OIG
selects most of its assignments.

Please call me if you have any questions or comments.

Sincerely,



Carl A. Clinefelter
Inspector General

Enclosure
                                                TABLE OF CONTENTS

Mission, Objectives and Goals............................................................................................ Tab 1
Assumptions ....................................................................................................................... Tab 1

Performance Measures for OIG by Product........................................................................ Tab 2
  Audits and Evaluations of Agency Programs and Operations
  Investigations
  Legislative and Regulatory Review
  Outreach Program
Audit Plan............................................................................................................................ Tab 2

Staffing and Resource Needs and Distribution ................................................................... Tab 3

IRM Plan Summary............................................................................................................. Tab 4

FY 2006 Revised Performance Budget .............................................................................. Tab 5
FY 2006 Revised Products and Services by Object Classification ..................................... Tab 5
FY 2006 Revised Products and Services ........................................................................... Tab 5
FY 2006 Budget and Justifications ..................................................................................... Tab 5

FY 2007 Proposed Performance Budget ............................................................................ Tab 5
FY 2007 Proposed Products and Services by Object Classification................................... Tab 5
FY 2007 Proposed Products and Services ......................................................................... Tab 5
FY 2007 Budget and Justifications ..................................................................................... Tab 5

Budget Detail for FY 2006-2007 ......................................................................................... Tab 5
Budget Summary for FY 2006-2007 ................................................................................... Tab 5
FY 2003-2007 Performance by Projects, Products and Services and Program Activities .. Tab 5
Budget History .................................................................................................................... Tab 5
                    Farm Credit Administration
                    Office of Inspector General
                       Fiscal Year 2006-2007

                                          MISSION
That the OIG’s work products and presence promote economy, efficiency and integrity in
Agency operations.

                             OBJECTIVES AND GOALS
   •   Audit and evaluate the Agency’s programs and operations to promote economy,
       efficiency, and effectiveness.
          1. Deliver quality audit and inspection products and services that are useful to
             management, the Board, and the Congress.
          2. Provide technical advice and assistance to Agency officials in developing sound
             management information and financial reporting systems and in streamlining
             programs and organizations.
          3. Continuously improve OIG staff, products, and internal office administration.

   •   Investigate observed, alleged, or suspected wrongdoing to prevent and detect
       fraud, waste, abuse, and mismanagement in Agency programs and operations.
          1. Effectively investigate and report administrative and criminal violations relating to
             FCA programs and personnel.
          2. Educate employees on their responsibility to report wrongdoing to the OIG.
          3. Provide relevant information on results of investigative activities to appropriate
             parties.

   •   Review and make recommendations regarding existing and proposed legislation
       and regulations relating to Agency programs and operations and the Inspector
       General community.
          1. Maintain an effective program for reviewing and commenting on proposed and
             existing legislation and regulations.

   •   Work with our Agency head and the Congress to improve program management;
       and work with the Inspectors General community and other related organizations
       to address government-wide issues.
          1. Building relationships with program managers based on a shared commitment to
             improving program operations and effectiveness.
          2. Provide leadership to the Inspector General community.
          3. Contribute to special projects to improve the Agency.
                     Farm Credit Administration
                     Office of Inspector General
                        Fiscal Year 2006-2007

                                      ASSUMPTIONS
Changing work force. The change in FCA’s work force with fewer and less tenured
employees and more contractors will necessitate OIG vigilance over the internal control
environment. FCA’s compensation and reward practices will need to be flexible to adapt to a
changing work force. The Farm Credit System (FCS or System) and the credit needs of rural
America will continue to evolve and change. The financial and banking industry will continue to
become more complex.

Changing work environment. As FCA and the OIG look to leverage investments in
technology, OIG must expand its knowledge of technology to effectively perform reviews.
Further, as FCA adapts technology to change its processes, the OIG will have to be positioned
to evaluate new risks in internal controls and security measures.

Limited budget resources. Budget pressures on the OIG will be equivalent to those faced by
FCA as a whole. The OIG will have to use an efficient mix of its core competencies and
external resources to fulfill its mission. Technology will continue to cause change in processes
and our approach to work.

Farm Credit Act. Changes in the agricultural and the financial industries will cause the FCS to
seek greater flexibility in law and regulations. OIG will continue to ensure that the FCA is ever
mindful of its arms length regulatory role and goal to facilitate System service to rural America,
and will continue to review and make recommendations regarding laws and regulations.
                                                Farm Credit Administration
                                                Office of Inspector General
                                                   Fiscal Year 2006-2007

                     AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS
                                                    AGENCY GOALS 1, 2 AND 3

               OIG GOAL                                      PERFORMANCE MEASURE                                         OUTCOME/IMPACT
1.   Deliver quality audit, inspection, and   Audits and inspections are relevant. Audit coverage          FCA programs and operations are more
     review products and services that        includes all mandated audits and at least 75% of those       effective.
     are useful to the Board,                 suggested by the Board and management.
                                                                                                           Waste in Agency programs and operations is
     management and/or the Congress.
                                              Risk is addressed. 100% of OIG audits are performed in       reduced.
                                              high risk/high dollar programs and activities and/or are
                                                                                                           Increased Agency compliance with laws,
                                              tied to the Agency strategic planning goals.
                                                                                                           regulations, and internal policies and
                                              Findings made during audit fieldwork are recognized and      procedures.
                                              corrected by management prior to drafting of the audit
                                                                                                           The Agency’s stature and reputation is
                                              report.
                                                                                                           elevated in the eyes of the Congress, the
                                              Products are timely, i.e., average time to complete audits   Administration, the FCS, FCA employees and
                                              and issue draft reports will not exceed 6 months.            the public.
                                              Audits are constructive. At least 75% of audit products      FCA is more effective in carrying out its
                                              contain recommendations to improve Agency operations.        mission.
                                              The Agency accepts at least 80% of the OIG audit
                                                                                                           The OIG is more effective in promoting
                                              recommendations.
                                                                                                           economy, effectiveness and efficiency within
                                              The Agency implements all corrective actions prescribed      the Agency.
                                              by management decisions.
                                                                                                           FCA continues to get an unqualified audit
                                                                                                           opinion on financial statements.
                                             Farm Credit Administration
                                             Office of Inspector General
                                                Fiscal Year 2006-2007

                    AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS
                                                 AGENCY GOALS 1, 2 AND 3

               OIG GOAL                                   PERFORMANCE MEASURE                                      OUTCOME/IMPACT
2.   Provide technical advice and          The IG advises the Chairman concerning policy direction    OIG input and advice contributes to Agency
     assistance to Agency officials in     or administrative priorities.                              decisions and actions that are more complete
     developing sound management                                                                      and valid in the inception.
                                           OIG performs analysis and provides technical advice to
     information and financial reporting
                                           management concerning accounting, management               Increase in management requests for advice,
     systems and in streamlining
                                           systems and controls, and performance measures.            review, and technical assistance.
     programs and organizations.
                                                                                                      Peer review reports provide an unqualified
                                                                                                      opinion that OIG audit work meets or exceeds
                                                                                                      quality audit standards prescribed by the
                                                                                                      Government Accountability Office (GAO) and
                                                                                                      the President’s Council on Integrity and
                                                                                                      Efficiency (PCIE) and the Executive Council on
                                                                                                      Integrity and Efficiency (ECIE).
3.   Continuous improvement of OIG         Customer survey feedback is used to improve products       Customer survey feedback evidences increase
     staff, products, and internal         and services.                                              satisfaction with report practices.
     administration.
                                           OIG training ensures the technical proficiency of staff.   The IG’s opportunity to facilitate positive
                                                                                                      change within the Agency is enhanced by the
                                           OIG implements administrative improvements identified
                                                                                                      quality and credibility of OIG products and
                                           through reviews of other Agency programs and through
                                                                                                      advice.
                                           staff involvement with the professional community.
                                             Farm Credit Administration
                                             Office of Inspector General
                                                Fiscal Year 2006-2007

                                                              INVESTIGATIONS
                                                   AGENCY GOALS 1 AND 2

              OIG GOAL                                    PERFORMANCE MEASURE                                        OUTCOME/IMPACT
1. Administrative and criminal             Investigative reports are timely and presented in an        Administrative action, convictions or pleas are
   violations relating to FCA programs     objective and factual manner. Memoranda are issued to       obtained for employees and/or contractors
   and personnel are effectively           management describing internal control weaknesses or        found guilty of wrongdoing.
   investigated and reported.              program deficiencies found during the investigative
                                                                                                       Management actions taken against employees
                                           process with suggestions to prevent and/or detect future
                                                                                                       serve as a deterrent to future wrongdoing.
                                           wrongdoing.
                                                                                                       FCA internal policies, procedures and controls
                                           70% of active cases will be less than two years old (from
                                                                                                       are strengthened to prevent and/or detect
                                           the date the case was opened).
                                                                                                       future wrongdoing.
                                           100% of employee cases without criminal prosecution
                                           potential will be completed within one year from opening
                                           the case.
2. FCA employees and managers              Allegations of wrongdoing are received in a timely          Investigations are more successful because
   recognize their responsibility to       manner and are supported by specific information.           they are initiated in a timelier manner and have
   immediately report observed or                                                                      better information.
   suspected wrongdoing to the IG.
                                                                                                       FCA employees are more willing to report real
                                                                                                       or suspected wrongdoing because they trust
                                                                                                       the competence and fairness of OIG’s
                                                                                                       investigations.
3. Agency officials and the Congress       Summaries of investigations and the resulting               The Chairman and the Congress are better
   are kept fully and currently informed   administrative or judicial actions taken are incorporated   informed about OIG investigations, and
   of problems found in the process of     into the Semiannual Report to the Congress, along with      administrative and judicial consequences.
   and resulting from investigative        any disagreements on the actions taken or failure of
                                                                                                       Public confidence in the integrity of FCA
   activities.                             management to act in a timely and responsible fashion.
                                                                                                       programs and internal operations are
                                           Findings made during the investigative process              heightened.
                                           concerning the problem at issue or systemic problems
                                           are recognized and corrected or mediated by
                                           management.
                                             Farm Credit Administration
                                             Office of Inspector General
                                                Fiscal Year 2006-2007

                                           LEGISLATIVE AND REGULATORY REVIEW
                                                           AGENCY GOAL 2

              OIG GOAL                                    PERFORMANCE MEASURE                                      OUTCOME/IMPACT
1. Maintain an effective program for       Processes are established and documented for              OIG input is part of the decision making
   reviewing and commenting on             identifying and circulating (as appropriate) relevant     process in approving or amending legislation,
   proposed and existing legislation and   documents.                                                regulations, circulars and other policy
   regulations affecting the Agency and                                                              documents.
                                           Constructive comments on relevant documents are
   the Inspector General community.
                                           submitted by the deadlines requested by the office,       Constructive criticism and creative alternatives
                                           Agency, or staff circulating comments.                    offered in OIG comments improve the quality
                                                                                                     and usefulness of documents initiated by the
                                           Document review activity is summarized for inclusion in
                                                                                                     Agency.
                                           the Semiannual Report to the Congress.
                                                                                                     FCA Board and management are informed
                                                                                                     about the status of new or pending legislation
                                                                                                     or regulations initiated externally.
                                              Farm Credit Administration
                                              Office of Inspector General
                                                 Fiscal Year 2006-2007

                                                          OUTREACH PROGRAM
                                                    AGENCY GOALS 1 AND 2

               OIG GOAL                                    PERFORMANCE MEASURE                                        OUTCOME/IMPACT
1. Agency personnel understand and          Develop and maintain educational brochures or               Agency employees’ acceptance of and
   accept OIG’s role within FCA and the     pamphlets describing OIG roles and activities.              cooperation with OIG activities is improved
   community at large.                                                                                  through better understanding. OIG programs
                                            Facilitate feedback from Agency employees and refine
                                                                                                        and products are improved through feedback
                                            products and practices based on the feedback to OIG
                                                                                                        from Agency employees.
                                            products and educational materials.
2. OIG staff provides leadership to         Time and resources are provided to OIG staff members        Projects and activities of adjunct organizations
   organizations directly contributing to   as an incentive to contribute to outside organizations by   such as the Association of Government
   the Inspector General community.         serving on committees and holding offices.                  Accountants (AGA), Institute of Internal
                                                                                                        Auditors (IIA), PCIE/ECIE, Council of Counsels
                                                                                                        to Inspector Generals (CCIG), Federal Law
                                                                                                        Enforcement Training Center (FLETC), and
                                                                                                        Inspectors General Auditor Training Institute
                                                                                                        (IGATI) are improved by OIG staff contributions
                                                                                                        and participation.
                                                                                                        The IG community is more credible and
                                                                                                        effective.
3. OIG staff contributes to special         OIG staff will participate in projects that contribute to   Management practices at the Agency are
   projects for improving the Agency,       achieving the vision of a better Agency and government.     improved by OIG staff participation in FCA
   the OIG community, and the Federal                                                                   special projects.
   government.
                                                                                                        FCA programs and operations are more
                                                                                                        effective and efficient.
                      Farm Credit Administration
                      Office of Inspector General
                         Fiscal Year 2006-2007

                                         AUDIT PLAN

BACKGROUND
The Chairman and FCA Board members have expressed their ongoing support for independent
assessments of significant programs of the Agency. The OIG has identified its focus issues in
this Operating and Performance Plan (OPP) and the Semiannual Report to the Congress in the
form of management challenges, as discussed below.

MANAGEMENT CHALLENGES
This part of the OPP highlights major challenges confronting the Agency as it works to fulfill its
mission. These challenges have remained for several years. While some are outside of the
Agency’s control, most should be addressed through concerted action by management. Over
the past year, the OIG has observed progress by FCA management in addressing the
challenges. Strategic studies were completed that have resulted in the initiation of significant
organizational change.
A major change was the transition to a new Chief Examiner. This has resulted in a major
transformation in the Office of Examination’s organization and operating methodology. These
changes will take some time to become fully institutionalized and reach full efficiency.
Another substantive change was to reconsolidate into a single office, the Office of Management
Services (OMS), the Agency’s personnel, financial, and information technology functions under
the umbrella of a new manager. This was also a proactive management action that has every
opportunity to provide positive results. Strategic improvement for the Agency in the human
capital and financial areas, in particular, should be enhanced by this transition.

Human Capital
       In March 2001, the OIG recommended FCA develop a human capital plan and FCA
       management agreed to this recommendation. Under Chairman Pellett’s leadership,
       senior managers have focused on the challenge of marshalling, managing, and
       maintaining human capital to assure accountability and maximize FCA performance.
       While FCA still does not have a human capital plan; the Agency has made a significant
       investment in strategic studies that can serve as the plan’s foundation. The objective of
       the strategic studies was to create a picture of the System and the credit needs of rural
       America in 5 to 7 years and identify organizational and human capital opportunities to
       help FCA adapt. The approach is a marked contrast to past OIG observations where we
       noted the problem was the lack of a consistent strategic approach in establishing a
       human capital plan.
       FCA’s challenge will be to transform the strategic studies into management actions
       (organizational changes and process improvements) that achieve better results and
       clarify accountability. Realignment of resources and/or processes should help FCA
       pursue organizational approaches that recognize the reality of evolving technology, a
       changing workforce, and other environmental forces. For example, as competitive
                    Farm Credit Administration
                    Office of Inspector General
                       Fiscal Year 2006-2007

                                       AUDIT PLAN

      sourcing, electronic government (E-Government), financial management, and other
      initiatives lead to change—how FCA meets its mission may need to change including the
      skill sets it needs and how it organizes those skills to meet its mission.
      The capstone to this should be a long-term human capital plan that incorporates the
      elements recommended in the OIG’s Audit A00-04, Performance Budgeting, issued in
      March 2001. A critical component of managing human capital is providing for
      management succession. Individuals with the potential to become managers should be
      identified, provided developmental opportunities, and ultimately promoted to higher
      positions. This, as part of a human capital plan, should be linked to the Agency’s
      Strategic Plan for long-term achievement of the Agency’s mission.
      Transparency, staff commitment, and accountability are key ingredients to sustained
      improvements in human capital.

Financial Management
      Timely, accurate, and useful financial information is essential for:
         •   making day-to-day decisions;
         •   managing the Agency’s operations more efficiently, effectively, and economically;
         •   supporting results-oriented management approaches; and
         •   ensuring accountability on an ongoing basis.

      During FY 2001, FCA successfully implemented a financial management system using
      the services of the Department of Interior’s National Business Center. During
      September 2003, the Agency decided to reprogram funds and purchase a new financial
      system. Management originally scheduled implementation of the new system during
      FY 2004. In September 2004, the OIG issued an inspection report that showed
      significant improvements were needed in the project management of this new financial
      management system to successfully complete implementation. In July 2005, the new
      office director over finance put this project on hold until a reevaluation of this new system
      can be made.
      Management’s continuing challenge is to bring yet another system on line at a
      reasonable cost to the FCA and concurrently leverage the system to deliver timely
      financial information, critical for making well-informed management decisions. The
      challenge suggests the Agency should develop measures of financial management
      success beyond an unqualified financial statement audit opinion, as stated in the FCA
      2004-2009 Strategic Plan. Measures such as delivering financial information that
      managers can use for day-to-day operations, and developing reports that capture the full
      cost of programs and projects can help bring about improvements.

Leveraging Technology
      Information technology (IT) is a key element of management reform efforts that can help
                     Farm Credit Administration
                     Office of Inspector General
                        Fiscal Year 2006-2007

                                        AUDIT PLAN

       dramatically reshape government to improve performance and reduce costs. The
       Agency has recognized that in order to meet the constraints of its budget, it must be able
       to maximize its return on investment in technology. FCA’s challenge is to establish
       effective mechanisms to ensure that current and future members of staff have the skills
       to use technology to operate in an efficient and effective manner. Internally, there is an
       opportunity for IT to complement human capital initiatives to reformulate the work
       processes of FCA. There is also an opportunity to capture knowledge of employees who
       are approaching retirement. In order to take advantage of these opportunities, FCA will
       need to invest in training and reward employees who are able to develop innovative
       approaches to accomplish Agency goals using technology.
       Externally, E-Government offers many opportunities to better serve the public, make
       FCA more efficient and effective, and reduce costs. FCA has begun to implement some
       E-Government applications, including the use of the Internet to collect and disseminate
       information and forms. FCA’s challenge is to identify opportunities to develop
       partnerships with other agencies to develop joint E-Government strategies.

Agency Governance
       The Farm Credit Act provides for a full-time three-member Board. The Board members
       are appointed by the President and confirmed by the Senate. A small full-time Board
       presents a challenge in terms of defining the roles and responsibilities of the Board
       members relative to the governance of the Agency. The Board must be able to engage
       in professional policy debate and set a sound course for the Agency. The Board’s rules
       of operation are a foundation for trust and shared expectations among Board members.
       A collegial Board, founded on mutual trust and respect, is essential to FCA’s ultimate
       effectiveness.
       The Chairman has taken action to address this challenge by sharing authority and
       tasking a Board member with the responsibility to lead the Board in its efforts on
       governance issues. During the past 6 months, the OIG has noted management efforts
       to review, deliberate, and revise Board policies including the Board’s rules of operation.
       This has resulted in significant progress towards addressing this longstanding
       management challenge.

Strategic Planning
       The FCA Board adopted its 2004-2009 Strategic Plan in December 2003. Since
       adoption, the Agency has a new Chairman and a new Board member. The changes in
       top leadership provide an opportunity to revise the plan to ensure the Board’s vision is
       accomplished.
       The Board refined the performance measures in January 2005. FCA should evaluate its
       performance measures on an ongoing basis to ensure that they challenge and stretch
       the organization. Performance measures can be a powerful tool to continue the push
       into a results-oriented organization. An effective performance management system
                          Farm Credit Administration
                          Office of Inspector General
                             Fiscal Year 2006-2007

                                              AUDIT PLAN

          fosters performance and accountability at the individual, organizational, and ultimately
          overall Agency levels.

A Changing Environment
          The System is a single industry lender and is vulnerable to economic swings. The FCS
          remains sound in all material respects. Earnings and capital levels have continued to
          strengthen and asset quality remains high. However, there are many challenges facing
          agriculture and rural America today that raise the question of whether there should be
          modifications to the Farm Credit Act in order to enhance agricultural and rural
          economies of the future. In the early 1990s, the GAO conducted a comprehensive study
          of the cost and availability of credit in rural America.1 The GAO concluded that the
          System did not need new statutory authorities in the near term, but that ongoing
          structural changes in agriculture and rural America could justify such changes in the
          longer term. GAO noted that over time, as agriculture and rural America continue to
          change, the System’s charter may need to be updated to ensure that the System is not
          hampered by outdated legislation.
          The FCA must balance the often competing demands of ensuring the FCS fulfills its
          public policy purpose, proactively examining risk in the regulated institutions both
          individually and systemically, and controlling the cost of the regulator. FCA’s challenge
          is complex because it has become increasingly difficult to reconcile significant provisions
          of the Farm Credit Act with the realities of the agricultural industry, the business
          environment, and financial markets in the 21ST Century. FCA management recognizes
          this challenge as evidenced by the Chairman’s testimony before the House Agriculture
          Subcommittee on Conservation, Credit, Rural Development, and Research in
          September 2004.
          As a financial regulator, FCA must maintain a flexible and responsive, yet independent
          and objective, regulatory environment. The Agency can anticipate that the System will
          press for broader powers through regulatory interpretations of the Farm Credit Act. At
          the same time, FCA must anticipate that the System’s competitors will press for more
          regulatory constraints on the System. In balancing these forces, the FCA Board must
          remain vigilant that its actions are transparent and congruent with its regulatory
          philosophy. Without these ingredients, the Agency risks being labeled as inflexible by
          the System or a captive by the System’s competitors.

AUDITS AND INSPECTIONS —FISCAL YEAR 2006
This audit plan identifies issues received from FCA management and staff as well as other
issues identified by OIG staff. OIG audits and inspections provide assurances to the Chairman
and FCA Board members that programs are operating effectively and with appropriate controls.
This audit plan identifies issues received from the FCA Board and management as well as

1
    GAO/GGD-94-39 Farm Credit System Repayment of Federal Assistance and Competitive Position, March 1994.
                     Farm Credit Administration
                     Office of Inspector General
                        Fiscal Year 2006-2007

                                        AUDIT PLAN

issues identified by OIG staff. Audit and inspection activities will most likely be selected from
the areas listed below. However, actual audits and inspections conducted may vary in order to
be responsive to changing needs or circumstances.

Audit of Financial Statements
       The OIG contracts with an independent accounting firm to conduct an audit of FCA’s
       financial statements. During FY 2006 and 2007, the OIG will deliver the audit opinion on
       the financial statements as of September 30, 2005 and 2006, respectively. This year
       and next, there is an expectation by FCA management and the Office of Management
       and Budget (OMB) that audit opinions will be issued and the Agency Performance and
       Accountability Report will be published by November 15, 2005 and 2006, respectively.
       The OIG incorporated more interim audit work in its contract to ensure expectations are
       met.
       During FY 2005, the OIG exercised the fourth year option with our auditing firm to
       complete the audit of the Agency’s financial statements as of September 30, 2005. This
       reduces the OIG’s costs associated with managing a contract during the first year of an
       engagement.

Financial Information Security Management Act of 2002 (FISMA)
       The FISMA mandates an annual evaluation by the OIG or an independent external
       auditor. Field work by our external auditors began in August 2005. The final report is
       due to OMB on October 6, 2005.
       Computer security remains a significant management challenge and the OIG anticipates
       computer security will remain a high priority. The OIG will continue to work with the
       Director of OMS and his Chief Information Officer to incorporate issues of concern in
       audit activities. We anticipate a slightly more complex effort in FY 2007 due to the
       addition of privacy information security requirements.

FCA Board Standing Committees
       FCA’s organizational structure was recently revised. Strategic studies of the Agency
       preceded the final determinations of organizational change. The intent is to make FCA a
       more efficient and effective regulator. As part of the reorganization and as stated in
       revised Policy Statement 64, June 2005, the FCA Board established three committees,
       the Regulation and Policy Development Committee, the Risk Committee, and the
       Strategic Planning Committee.
       Policy Statement 64 indicates these committees are intended by the FCA Board to be
       important mechanisms in assisting the FCA Board in effectively managing the Agency, in
       promulgating policy and regulations, and in assessing risk and its implications.
       The OIG plans to perform a review of these committees to determine if they are meeting
       the FCA Board’s plan and expectations.
                     Farm Credit Administration
                     Office of Inspector General
                        Fiscal Year 2006-2007

                                      AUDIT PLAN

FCA Organizational Changes
      FCA has gone through many organizational changes in past years as a result of
      leadership transition and efforts to increase Agency efficiency. The OIG will review the
      Agency’s organizational structure and other changes after the most recent strategic
      studies (by KPMG and Lindholm) to assess the effectiveness of management’s actions
      in response to the studies.

Management of Succession Planning
      OIG will assess management succession planning in the Agency to determine its
      adequacy, linkage to the Strategic Plan’s human capital initiatives, and linkage to the
      Agency’s achievement of its mission.
FCA Strategic Plan
      We will assess FCA’s process for the development of the strategic plan and evaluate
      compliance with the Government Performance and Results Act (GPRA).

SmartPay Program
      Economies and quality of service to be realized in the selection of future SmartPay
      vendors based on a study and comparison of past experience.

Audit Follow-Up
      Saving money and improving programs and operations are the main objectives of the
      audit function. Findings, recommendations, and agreed-upon actions are the vehicles
      by which these objectives are sought. But it is management’s resulting actions that help
      an organization improve its effectiveness and efficiency. Therefore, we will complete a
      review that will focus on FCA’s actions in response to OIG reports.

AUDITS AND INSPECTIONS— FISCAL YEAR 2007 AND BEYOND

      •   FCA Policy and Regulation Development
      •   Assess Effectiveness of a Selected Regulation(s)
      •   Financial Information for Management Decisions
      •   Implementation of Risk-based Supervision
      •   Leveraging Technology in Conducting Examinations
      •   Appropriateness of the interface of OSMO and FCA as the Regulators of Two
          Distinct GSEs
      •   OGC Legal Opinion Process, Efficiency, and Effectiveness
             Farm Credit Administration
             Office of Inspector General
                Fiscal Year 2006-2007

                                 AUDIT PLAN

•   FCA Examiner Commissioning Program
•   Borrower Complaint Handling
•   Examination Best Practices
•   Evaluation of Physical Security Practices and Emergency Preparedness
•   Policy and Procedures Manual Process
•   Adherence to the Government in the Sunshine Act
•   Agency’s Validation of Employees’ Credentials used in Gaining Employment
•   Agency’s Administration of the Correspondence Tracking System
•   Sunset Act Compliance Regarding Reports Submitted to Congress
                     Farm Credit Administration
                     Office of Inspector General
                        Fiscal Year 2006-2007

         STAFFING AND RESOURCE NEEDS AND DISTRIBUTION

STATUTORY ROLE AND RESPONSIBILITIES
The OIG was created within the FCA by the 1988 Amendments to the Inspector General Act of
1978 (IG Act) as an independent unit to: 1) conduct and supervise audits and investigations; 2)
promote economy, efficiency and effectiveness and to prevent fraud and abuse in program
administration; and 3) keep the Chairman and the Congress fully informed about problems and
deficiencies and the need and progress in correcting them.
The IG Act specifies the Inspector General’s duties, responsibilities, and authorities. The IG Act
precludes the OIG from performing any Agency program operating function; rather, the OIG
advises management and the Congress about ways to improve programs. The Inspector
General works with the Chairman to promote positive change in the Agency’s programs and
operations.

OIG STAFFING NEEDED TO DELIVER PRODUCTS AND SERVICES
This section describes the staffing of the OIG. It also discusses how the OIG is organized to
produce the products and services appropriate to fulfill its responsibilities.
The Inspector General provides leadership, policy direction, and general management and
supervision of the OIG staff. The Inspector General is also an advisor to the Chairman and the
principal spokesperson for OIG, coordinating its activities and issues with other agencies. The
Inspector General position is intended to be comparable in grade with the other office directors.
The Counsel to the Inspector General provides independent legal advice, analysis of
proposed legislation and regulations, and reviews OIG products for legal sufficiency. Counsel
represents and defends OIG in all legal issues. The Counsel also participates in audits and
inspections on an as needed basis. This position is a permanent part-time position as .83 FTE.
The Program Auditor position is devoted exclusively to audits, inspections, and management
analyses, focusing on the significant management challenges of the Agency.
The Criminal Investigator provides the expertise to conduct investigations. This task is less
than full-time and the person in this position also performs audits, inspections and other
analyses.
The Management Analyst is responsible for assisting the Inspector General in budgeting,
procurement, training, administrative matters relating to personnel management, and for general
administrative support to the rest of the staff. The position is responsible for assisting the
Inspector General in the completion of the FCS Annual Survey report and participates in audits,
inspections, and management reviews of administrative and operational activities.
                     Farm Credit Administration
                     Office of Inspector General
                        Fiscal Year 2006-2007

         STAFFING AND RESOURCE NEEDS AND DISTRIBUTION

OIG PRODUCTS AND SERVICES
Audits and Inspections are the primary vehicles through which the OIG develops
recommendations to promote economy, efficiency, and effectiveness in Agency programs and
prevent waste and mismanagement. OIG also provides input to the Chairman or managers
through management letters and confidential observations.
An auditor is devoted full time to audits. The Counsel to the Inspector General, the Criminal
Investigator, and the Management Analyst also perform evaluations under the supervision of the
Inspector General, focusing on evaluating administrative and operational issues. The varied
backgrounds of these individuals bring expertise to evaluating Agency activities beyond that of
traditional audits.
OIG augments it core staff with contracts when high level subject matter expertise is needed to
perform a particular task.
Investigations encompass all OIG activities designed to detect or prevent fraud and abuse in
administering Agency programs. Investigations are normally distinguished from other
evaluations mainly in that they are directed at individuals rather than programs and activities.
However, some of OIG’s investigative actions are directed at preventing fraud and abuse
through improving the effectiveness of management and administrative controls and practices,
especially in high-risk areas. OIG also manages a HOTLINE to help FCA employees and the
public report wrongdoing.
Legislative and Regulatory Review includes the review and comment on proposed and
existing legislation and regulations as they may affect the Agency or the OIG community.
Activity review is reported in the Semiannual Report to the Congress.
Outreach directs the OIG to focus attention to improving the Agency, the Inspector General
community and the Federal government. This is accomplished by promoting Agency
understanding of the OIG’s role, providing leadership to organizations contributing to the
Inspector General community, and by participating in special projects. The OIG also develops
educational information describing the roles and activities of the OIG and provides information
to the public through the FCA web site.
Other OIG Functions include internal policy direction and leadership and advice to the
Chairman and management about Agency programs and operations. The Inspector General is
also responsible for fully informing the Chairman and the Congress about fraud and other
serious problems in Agency programs, including management’s progress in carrying out
corrective actions.
                      Farm Credit Administration
                      Office of Inspector General
                         Fiscal Year 2006-2007

           STAFFING AND RESOURCE NEEDS AND DISTRIBUTION

OIG’S MISSION, VISION AND IMPLICATIONS FOR STAFFING
It is the OIG’s mission that its work products and presence promote economy, efficiency and
integrity in Agency operations. OIG will accomplish this by being a leader and catalyst
identifying Agency challenges and opportunities. We will strive to:
       •    deliver products and services that are competent, objective, timely and relevant;
       •    maintain a customer focus which is responsive to the needs of decision-makers; and
       •    provide a positive working environment that encourages us to be innovative and
            reach our potential through teamwork and candid communication.

If we are to fulfill these statements, each staff member must broaden and refine their skills and
abilities, adopt a creative approach to problem solving, and take the initiative to influence
management. In that way, management will be receptive to our conclusions and
recommendations. Staff must be supported through OIG management’s actions, equipment
and training, and mutual support from office teammates.

STAFFING ASSESSMENT AND STRATEGIES
OIG’s diverse responsibilities prescribed by the IG Act dictate the needed competencies within
the OIG staff. The independent nature of the OIG role also has implications for staffing. Even
with a very small staff, the OIG can deliver its products and services by maintaining a high level
of cross training and a broad base of expertise in audit, investigations, law, management, and
administration. The 4.83 FTEs in this plan constitute the critical mass necessary to credibly
perform OIG’s responsibilities. Conversely, the related level of risk at FCA does not warrant
either an increase in the number of FTEs or change in the mix of competencies. The OIG
established the current staffing pattern after careful analysis of the specialized nature of the
OIG’s responsibilities and volume of work. Downsizing over the years has reduced the OIG to a
level at which any further reduction may adversely affect the OIG’s accomplishment of its
mission.
OIG staff performs evaluations and investigations under the general supervision of the Inspector
General. These assignments are often unlike previous assignments and need creative thinking
in planning and developing the project, and mature judgment in developing conclusions and
recommendations and defending them before management.
The current OIG staff profile represents a high level of diversity. OIG has been successful in
obtaining a diverse pool of applicants in its recent job postings. When filling future OIG
vacancies, we will make a concerted effort to attract a diverse pool of qualified candidates. We
share the Agency’s affirmative employment objectives and believe that a diverse staff is a
critical factor in the long-term success of an organization.
                       Farm Credit Administration
                       Office of Inspector General
                          Fiscal Year 2006-2007

           STAFFING AND RESOURCE NEEDS AND DISTRIBUTION

STAFFING OBJECTIVES, STRATEGIES AND ASSUMPTIONS
Objectives
       •     Retain and refine the skills and competencies represented by the current staff profile.
       •     Employ the best-qualified applicant while ensuring the broadest possible pool of
             applicants.
       •     Cross-train all OIG staff to ensure each staff member can capably perform at least
             one OIG function as well as their primary staffing role.
       •     Increase effectiveness of collaboration among OIG staff members.
       •     Expand OIG staff participation in non-program activities of the Agency.

Strategies
       •     Staff will identify and participate in training and professional development activities
             identified in individual development plans to retain and enhance skills.
       •     Teamwork training will occur regularly to promote collaboration among OIG staff.
       •     Agency affirmative employment objectives will be considered in filling all OIG
             vacancies to achieve appropriate diversity.
                     Farm Credit Administration
                     Office of Inspector General
                        Fiscal Year 2006-2007

                                 IRM PLAN SUMMARY
IRM Budget       Object    FY 2006   FY 2007   FY 2008   FY 2009   FY 2010   FY 2011    Total
Category         Code       Costs     Costs     Costs     Costs     Costs     Costs     Costs

Telephone &      2329        3,000     3,000     3,000     3,000     3,000     3,000     18,000
Communications
Services

Consulting       2510       35,000    40,000    40,000    40,000    45,000    45,000    245,000
Services

IT Equipment     3140        6,600     2,400    17,900       800       800       400     28,900

Software         3143        5,500       500     1,500       500     1,500       500     10,000

                   Total   $50,100   $45,900   $62,400   $44,300   $50,300   $48,900   $301,900
                          Farm Credit Administration
                          Office of Inspector General
                             Fiscal Year 2006-2007

                     FY 2006 REVISED PERFORMANCE BUDGET
                             by Performance Objectives
                                                                  Direct       Indirect
                  Program Activities                 Total Cost                               Total FTE
                                                                  Cost           Cost
1.0 Policy and Regulation                                     0            0                        0.00
1.1 Regulation and Policy Development                         0            0                        0.00
1.2 Statutory and Regulatory Approvals                        0            0                        0.00

2.0 Safety and Soundness                                      0            0                        0.00
2.1 Examination                                               0            0                        0.00
2.2 Economic, Financial and Risk Analysis                     0            0                        0.00
2.3 FCS Data Management                                       0            0                        0.00

3.0 Implement the President’s Management Agenda               0            0              0         0.00
3.1 Strategically manage human capital                        0                           0         0.00
3.2 Upgrade the Agency’s financial management                 0                           0         0.00
system
3.3 Continue the expansion of e-government                    0                           0         0.00
3.4 Continue evolution of budget & performance                0                           0         0.00
integration
3.5 Give due consideration to competitive sourcing            0                           0         0.00

4.0 Reimbursable Activities                                   0                                     0.00
4.1 SBA                                                       0            0                        0.00
4.2 USDA                                                      0            0                        0.00
4.3 FCSIC                                                     0            0                        0.00
4.4 NCB/NCB Development Corporation                           0            0                        0.00

5.0 Distributed Costs                                   998,248                  998,248            4.83
5.1 Budget and Financial Management                           0                           0         0.00
5.2 Human Resources Management                                0                           0         0.00
5.3 Information Resources Management                          0                           0         0.00
5.4 Other Legal Counsel                                       0                           0         0.00
5.5 Communication                                             0                           0         0.00
5.6 Contracting, Procurement, Mail and Supply                 0                           0         0.00
5.7 Board Activities and Information Services                 0                           0         0.00
5.8 Congressional and Intergovernmental Affairs               0                           0         0.00
5.9 Records Management and Information Services               0                           0         0.00
                         Farm Credit Administration
                         Office of Inspector General
                            Fiscal Year 2006-2007

                      FY 2006 REVISED PERFORMANCE BUDGET
                              by Performance Objectives
                                                                  Direct       Indirect
                 Program Activities                  Total Cost                               Total FTE
                                                                  Cost           Cost
5.10 Audit and Investigations                           998,248                  998,248            4.83
5.11 Administration                                           0                           0         0.00
5.12 OSMO/Farmer Mac (non-exam activities)                    0                           0         0.00

                                             Total     $998,248            0    $998,248            4.83
                          Farm Credit Administration
                          Office of Inspector General
                             Fiscal Year 2006-2007

                  FY 2006 REVISED PRODUCTS AND SERVICES
                            by Object Classification
                                                                 PS 4.83
Resources                                          Total         Audits and     PS #       PS #       PS #       PS #
                                                               Investigations

Full-time Equivalents (FTE)                           4.83             4.83      0.00       0.00       0.00       0.00
% of costs distributed on the basis of FTE            1.00             1.00      0.00       0.00       0.00       0.00
                                          Total   $998,248       $998,248

Object Classification
11.1 Full-time permanent                           469,231         469,231             0          0          0      0
11.3 Other than full-time permanent                133,238         133,238             0          0          0      0
11.5 Other personnel compensation                    2,000            2,000            0          0          0      0
                                      Subtotal     604,469         604,469             0          0          0      0

12.1 Personnel benefits               Subtotal     175,772         175,772             0          0          0      0

13.0 Benefits to former personnel     Subtotal             0               0           0          0          0      0

21.0 Travel & transportation of person                                                 0          0          0      0
                                    Subtotal        15,000          15,000

22.0 Transportation of things       Subtotal         1,200            1,200            0          0          0      0

23.2 Rental payments to others                             0               0           0          0          0      0
23.3 Communications, utilities, & misc.              4,232            4,232            0          0          0      0
                                      Subtotal       4,232            4,232            0          0          0      0

24.0 Printing and reproduction        Subtotal       1,500            1,500            0          0          0      0

25.1 Advisory and assistance services               35,000          35,000             0          0          0      0
25.2 Other services                                142,075         142,075             0          0          0      0
25.3 Other purchases from Govt accounts              3,000            3,000            0          0          0      0
25.7 Operation & maintenance of equipment                  0               0           0          0          0      0
                                      Subtotal    180,0750         180,075             0          0          0      0

26.0 Supplies and materials         Subtotal         5,400            5,400            0          0          0      0

31.0 Equipment                        Subtotal      12,600          12,600             0          0          0      0

42.0 Insurance claims & indemnities                        0               0           0          0          0      0
                                   Subtotal

92.0 Undistributed                    Subtotal             0               0           0          0          0      0
                                          Total   $998,248       $998,248              0          0          0      0
                      Farm Credit Administration
                      Office of Inspector General
                         Fiscal Year 2006-2007

                  FY 2006 REVISED PRODUCTS AND SERVICES
The accomplishment of the OIG’s products and services correlate to fulfilling our goals and
objectives. Management, administrative support and lave are disbursed across the four program
areas.

 Products/Service                              Budget     % Budget        FTE         % FTE

 Audits, Inspections, and Review Products     $578,984       58%           2.80         58%

 Investigations                               $199,649       20%            .97         20%

 Legislation and Regulations Review           $119,790       12%            .58         12%

 Outreach                                      $99,825       10%            .48         10%

                                      Total   $998,248      100%           4.83       100%

Audits, Inspections, and Review Products—The OIG evaluates approximately 6-10 reports
per year (including the annual FCA financial audit). This includes technical advice and
assistance to Agency officials in developing management information and financial reporting
systems and in streamlining programs and organizations. It also includes survey production. At
present, one survey has been produced for over 10 years, the Farm Credit System Survey. A
second survey, the Regulation Development Survey, has been produced twice and its
usefulness in the present form is under consideration.
Budget for FY 2006—$578,984                                                         2.80 FTE

Investigative Function—Allegations received by the OIG are reviewed by testing information
provided to determine whether an investigation should be opened. Investigations are conducted
when appropriate. Maintaining the OIG HOTLINE and directing FCS borrower complaint or
inquiry issues to Agency components are additional functions of the investigative service.
Budget for FY 2006—$199,649                                                          .97 FTE

Review and Comment on Proposed and Existing Legislation and Regulations—The OIG
reviews, comments and responds to Congressional and executive requests and inquiries.
Additionally the OIG reviews and comments on proposed and existing legislation and regulations
affecting the Agency and the Inspector General community.
Budget for FY 2006—$119,790                                                          .58 FTE
                     Farm Credit Administration
                     Office of Inspector General
                        Fiscal Year 2006-2007

                FY 2006 REVISED PRODUCTS AND SERVICES
Outreach Program—The OIG educates FCA employees about OIG’s role within the Agency.
The OIG lends leadership to organizations directly contributing to the IG community. Through
involvement in special projects and workgroups, the OIG makes contributions for improving the
Agency, the OIG community and the Federal government. This includes but is not limited to: the
Semiannual Report to the Congress, participation in external activities such as membership on
the ECIE and the CCIG, and instructing at the IG Academy and various public and Government
forums. We also participate in Agency efforts, such as the GPRA initiative, Employee’s Council,
Administrative Workgroup, Blacks in Government, and Continuity of Operations Plan.
Budget for FY 2006—$99,825                                                           .48 FTE
                      Farm Credit Administration
                      Office of Inspector General
                         Fiscal Year 2006-2007

              FY 2006 REVISED BUDGET AND JUSTIFICATIONS
TOTAL OFFICE BUDGET                                                                      $998,248
   Total approved IRM Plan amount included in Office Budget                               $ 50,100

1100 Personnel Compensation                                                              $604,469
Amount required to fund salaries of OIG staff (4.83 FTE) charged with conducting audits and
investigations related to Agency programs and operations. We are also responsible for
reviewing existing and proposed legislation and regulations to evaluate their impact on the
Agency and on the prevention of fraud and abuse. Funds are included to provide for two
possible promotions. Funds are also allocated for cash awards for deserving employees.

1200 Personnel Benefits                                                                   $173,772
Benefits are the direct result of salaries, consistent with employees’ retirement systems, health
and other related benefits.

1300 Benefits for Former Personnel                                                         $ --
N/A

2100 Travel and Transportation of Persons                                                 $ 15,000
OIG staff will use travel funds for audit and investigative related matters. Funds will also be
used for travel related to training courses, professional associations meetings, and a
teambuilding session for all OIG staff.

2200 Transportation of Things                                                              $ 1,200
The amount is necessary for anticipated express mail services throughout the year.

2300 Rent, Communications, Utilities, and Miscellaneous                                    $ 4,232
   2300 Approved IRM Plan                                                                   $ 3,000
These funds will cover anticipated usage of telephone credit cards while on official travel, long
distance phone service in McLean, courier delivery services throughout the year to hand-deliver
information and reports to the Congress and other groups, and blackberry service for the
Inspector General. Funds will cover a portion of telecommuters access expense and
maintenance of an independent internet access for the anonymous HOTLINE account. The
independent internet account is used for confidential reporting of fraud, waste, abuse, and
mismanagement.



2400 Printing and Reproduction                                                            $ 1,500
Cost of printing brochures, pamphlets, business cards, etc. when FCA cannot produce the
                      Farm Credit Administration
                      Office of Inspector General
                         Fiscal Year 2006-2007

              FY 2006 REVISED BUDGET AND JUSTIFICATIONS
items.

2500 Other Contractual Services                                                          $180,075
   2500 Approved IRM Plan                                                                 $ 35,000
Contract services will be needed to assist in staff reviews of programs, including FISMA and
FCA financial statements audits. The tuition funds will be used for individual training classes for
staff. Individual training classes are a mandatory requirement of the Federal Yellow Book for
auditors and of the legal bar association for the Counsel to the IG. Membership fees will cover
the dues for professional organizations to which OIG staff belong such as the Institute of
Internal Auditors and Association of Government Accountants.
Government contractual funds will be used for miscellaneous training courses being attended by
staff at the U.S. Department of Agriculture (USDA), Federal Law Enforcement Training Center
(FLETC), and other government agencies. They will also be used for contracts used by other
government agencies such as Department of Labor (DOL) and General Services Administration
(GSA) for independent reviews of such things as the Agency’s financial statements and the
OMB required IT security audit. Government Information Security Reform Act (GISRA) requires
agencies to perform an audit of IT security on an annual basis.

2600 Supplies and Materials                                                                $ 5,400
To purchase miscellaneous text and reference books as well as on-going subscriptions. Office
supply funds will be used mainly to purchase supplies for dedicated office equipment. Non-cash
awards will be given to staff at the discretion of the IG.

3100 Equipment                                                                            $ 12,600
   3100 Approved IRM Plan                                                                 $ 12,100
Purchase equipment and software as necessary to support IG programs.
                          Farm Credit Administration
                          Office of Inspector General
                              Fiscal Year 2006-2007

                     FY 2007 PROPOSED PERFORMANCE BUDGET
                              by Performance Objectives
Program Activities                                                  Direct       Indirect       Total FTE
                                                       Total Cost
                                                                    Cost           Cost
1.0 Policy and Regulation                                       0            0                       0.00
1.1 Regulation and Policy Development                           0            0                       0.00
1.2 Statutory and Regulatory Approvals                          0            0                       0.00

2.0 Safety and Soundness                                        0            0                       0.00
2.1 Examination                                                 0            0                       0.00
2.2 Economic, Financial and Risk Analysis                       0            0                       0.00
2.3 FCS Data Management                                         0            0                       0.00

3.0 Implement the President’s Management Agenda                 0                           0        0.00
3.1 Strategically manage human capital                          0                           0        0.00
3.2 Upgrade the Agency’s financial management system            0                           0        0.00
3.3 Continue the expansion of e-government                      0                           0        0.00
3.4 Continue the evolution of budget & performance              0                           0        0.00
integration
3.5 Give due consideration to competitive sourcing              0                           0        0.00

4.0 Reimbursable Activities                                     0            0                       0.00
4.1 SBA                                                         0            0                       0.00
4.2 USDA                                                        0            0                       0.00
4.3 FCSIC                                                       0            0                       0.00
4.4 NCB/NCB Development Corporation                             0            0                       0.00

5.0 Distributed Costs                                   1,008,040                1,008,040           4.83
5.1 Budget and Financial Management                             0                           0        0.00
5.2 Human Resources Management                                  0                           0        0.00
5.3 Information Resources Management                            0                           0        0.00
5.4 Other Legal Counsel                                         0                           0        0.00
5.5 Communication                                               0                           0        0.00
5.6 Contracting, Procurement, Mail and Supply                   0                           0        0.00
5.7 Board Activities and Information Services                   0                           0        0.00
5.8 Congressional and Intergovernmental Affairs                 0                           0        0.00
5.9 Records Management and Information Services                 0                           0        0.00
                          Farm Credit Administration
                          Office of Inspector General
                              Fiscal Year 2006-2007

                      FY 2007 PROPOSED PERFORMANCE BUDGET
                               by Performance Objectives
5.10 Audit and Investigations                         1,008,040        1,008,040   0.00

5.11 Administration                                          0                0    0.00
5.12 OSMO/Farmer Mac (non-exam activities)                   0                0    0.00

                                             Total   $1,008,040   0   $1,008,040   4.83
                        Farm Credit Administration
                        Office of Inspector General
                           Fiscal Year 2006-2007

               FY 2007 PROPOSED PRODUCTS AND SERVICES
                          by Object Classification
                                                              PS 4.83
Resources                                        Total         Audits and     PS #    PS #    PS #       PS #
                                                             Investigations

Full-time Equivalents (FTE)                           4.83            4.83     0.00    0.00    0.00       0.00
% of costs distributed on the basis of FTE            1.00            1.00     0.00    0.00    0.00       0.00
                                      Total     $1,008,040   $1,008,040

Object Classification
11.1 Full-time Permanent                          476,719        476,719        0        0           0      0
11.3 Other than full-time permanent               133,238        133,238        0        0           0      0
11.5 Other personnel compensation                    2,000          2,000       0        0           0      0
                                   Subtotal       611,957        611,957        0        0           0      0

12.1 Personnel benefits           Subtotal        177,976        177,976        0        0           0      0

13.0 Benefits to former personnel Subtotal               0                0     0        0           0      0

21.0 Travel & transportation of person                                          0        0           0      0
                                   Subtotal        15,300         15,300

22.0 Transportation of things     Subtotal           1,200          1,200       0        0           0      0

23.2 Rental payments to others                           0                0     0        0           0      0
23.3 Communications, utilities, & misc.              4,232          4,232       0        0           0      0
                                   Subtotal          4,232          4,232       0        0           0      0

24.0 Printing and reproduction    Subtotal           1,500          1,500       0        0           0      0

25.1 Advisory and assistance services              40,000         40,000        0        0           0      0
25.2 Other services                               140,075        140,075        0        0           0      0
25.3 Other purchases from Govt accounts              3,000          3,000       0        0           0      0
25.7 Operation and maintenance of equip.                 0                0     0        0           0      0
                                   Subtotal       187,075        187,075        0        0           0      0

26.0 Supplies and materials        Subtotal          5,400          5,400       0        0           0      0

31.0 Equipment                    Subtotal           3,400          3,400       0        0           0      0

42.0 Insurance claims & indemnities                      0                0     0        0           0      0
                                  Subtotal

92.0 Undistributed                Subtotal               0                0     0        0           0      0
                                        Total   $1,008,040   $1,008,040         0        0           0      0
                      Farm Credit Administration
                      Office of Inspector General
                         Fiscal Year 2006-2007

                       FY 2007 PRODUCTS AND SERVICES
The accomplishment of the OIG’s products and services correlate to fulfilling our goals and
objectives. Management, administrative support and leave are disbursed across the four
program areas.

 Products/Service                               Budget     % Budget         FTE         % FTE

 Audits, Inspections, and Review Products      $584,663        58%          2.80         58%

 Investigations                                $201,608        20%           .97         20%

 Legislation and Regulations Review            $120,965        12%           .58         12%

 Outreach                                      $100,804        10%           .48         10%

                                      Total   $1,008,040      100%          4.83        100%

Audits, Inspections, and Review Products— The OIG evaluates approximately 6-10 reports
per year (including the annual FCA financial audit). This includes technical advice and
assistance to Agency officials in developing management information and financial reporting
systems and in streamlining programs and organizations. It also includes survey production. At
present, two surveys are produced in OIG for the direct benefit of the Agency for use in
measuring performance. These two surveys are the Farm Credit System Survey and the
Regulation Development Survey.
Budget for FY 2007—$584,663                                                            2.80 FTE

Investigative Function— Allegations received by the OIG are reviewed by testing information
provided to determine whether an investigation should be opened. Investigations are conducted
when appropriate. Maintaining the OIG HOTLINE and directing FCS borrower complaint or
inquiry issues to Agency components are additional functions of the investigative service.
Budget for FY 2007—$201,608                                                             .97 FTE

Review and Comment on Proposed and Existing Legislations and Regulations—The OIG
reviews, comments and responds to Congressional and executive requests and inquiries.
Additionally the OIG reviews and comments on proposed and existing legislation and regulations
affecting the Agency and the Inspector General community.
Budget for FY 2007—$120,965                                                             .58 FTE
                     Farm Credit Administration
                     Office of Inspector General
                        Fiscal Year 2006-2007

                      FY 2007 PRODUCTS AND SERVICES

Outreach Program—The OIG educates FCA employees about OIG’s role within the Agency.
The OIG lends leadership to organizations directly contributing to the IG community. Through
involvement in special projects and workgroups, the OIG makes contributions for improving the
Agency, the OIG community and the Federal government. This includes but is not limited to:
the Semiannual Report to the Congress, participation in external activities such as membership
on the ECIE and the CCIG, and instructing at the IG Academy and various public and
Government forums. We also participate in Agency efforts, such as the GPRA initiative,
Employee’s Council, Administrative Workgroup, Blacks in Government, and Continuity of
Operations Plan.
Budget for FY 2007—$100,804                                                            .48 FTE
                      Farm Credit Administration
                      Office of Inspector General
                         Fiscal Year 2006-2007

                     FY 2007 BUDGET AND JUSTIFICATIONS
TOTAL OFFICE BUDGET                                                                    $1,008,040
   Total approved IRM Plan amount included in Office Budget                                $45,900

1100 Personnel Compensation                                                              $611,957
Amount required to fund salaries of OIG staff (4.83 FTE) charged with conducting audits and
investigations related to Agency programs and operations. We are also responsible for
reviewing existing and proposed legislation and regulations to evaluate their impact on the
Agency and on the prevention of fraud and abuse. Funds are included to provide for two
possible promotions in FY 2006. Funds are also allocated for cash awards for deserving
employees.

1200 Personnel Benefits                                                                   $177,976
Benefits are the direct result of salaries, consistent with employees’ retirement systems, health
and other related benefits.

1300 Benefits for Former Personnel                                                        $ --
N/A

2100 Travel and Transportation of Persons                                                 $ 15,300
OIG staff will use travel funds for audit and investigative related matters. Funds will also be
used for travel related to training courses, professional associations meetings, and a
teambuilding session for all OIG staff.

2200 Transportation of Things                                                             $ 1,200
The amount is necessary for anticipated express mail services throughout the year.

2300 Rent, Communications, Utilities, and Miscellaneous                                    $ 4,232
   2300 Approved IRM Plan                                                                 $ 3,000
These funds will cover anticipated usage of telephone credit cards while on official travel, long
distance phone service in McLean, courier delivery services throughout the year to hand-deliver
information and reports to the Congress and other groups, and blackberry service for the
Inspector General. Funds will cover a portion of telecommuters access expense and
maintenance of an independent internet access for the anonymous HOTLINE account. The
independent internet account is used for confidential reporting of fraud, waste, abuse, and
mismanagement.

2400 Printing and Reproduction                                                            $ 1,500
Cost of printing brochures, pamphlets, business cards, etc. when FCA cannot produce the
                      Farm Credit Administration
                      Office of Inspector General
                         Fiscal Year 2006-2007

                     FY 2007 BUDGET AND JUSTIFICATIONS
items.

2500 Other Contractual Services                                                          $187,075
   2500 Approved IRM Plan                                                                 $ 40,000
Contract services will be needed to assist in staff reviews of programs, including FISMA and
FCA financial statements audits. The tuition funds will be used for individual training classes for
staff. Individual training classes are a mandatory requirement of the Federal Yellow Book for
auditors and of the legal bar association for the Counsel to the IG. Membership fees will cover
the dues for professional organizations to which OIG staff belong such as the Institute of
Internal Auditors and Association of Government Accountants.
Government contractual funds will be used for miscellaneous training courses being attended by
staff at USDA, Federal Law Enforcement Training Center (FLETC), and other government
agencies. They will also be used for contracts used by other government agencies such as
DOL and GSA for independent reviews of such things as the Agency’s financial statements and
the OMB required IT security audit. GISRA requires agencies to perform an audit of IT security
on an annual basis.

2600 Supplies and Materials                                                              $   5,400
To purchase miscellaneous text and reference books as well as on-going subscriptions. Office
supply funds will be used mainly to purchase supplies for dedicated office equipment. Non-cash
awards will be given to staff at the discretion of the IG.

3100 Equipment                                                                            $ 3,400
   3100 Approved IRM Plan                                                                 $ 2,900
Purchase software as necessary to support IG programs.
                              Farm Credit Administration
                              Office of Inspector General
                                 Fiscal Year 2006-2007
  PERFORMANCE BY PROJECTS, PRODUCTS AND SERVICES AND PROGRAM
                     ACTIVITIES, FY 2003-2007
                                  Project   FY 2003   FY 2004   FY 2005   FY 2006    FY 2007
Program Activities
                                  Number     Actual    Actual   Revised   Revised   Proposed

1.0 Policy and Regulation                         0         0         0         0              0

1.1 Regulation and Development                    0         0         0         0              0
   Competition/Regulation          3177           0         0
   Review
   Regulatory Burden               3178           0         0
   Termination/Banks and           3180           0         0
   Large Associations
   Leasing Authorities             3181           0         0
   Borrower Rights                 3182           0         0
   Releasing Information           3184           0         0
   FCA Handbook                    3185           0         0
   Federal Register Liaison        3186           0         0
   Other Regulatory Initiatives    3187           0         0
   YBS Policy Statement            3188           0         0
   Recodify Farm Credit Act        3196           0         0
   Other Policy Initiatives        3200           0         0
   Investments in Rural USA        3292           0         0
   OFI Lending                     3293           0         0
   National Charters               3306           0         0
   Texas FCB Litigation            3313           0         0
   Capital and Financial Risk      3315           0         0
   Management
   Electronic Commerce (FCS)       3318           0         0
   Distressed Loan                 3323           0         0
   Restructuring
   Effective Interest Rate         3324           0         0
   Credit and Related Services     3325           0         0
   FCS Institution Structure       3326           0         0
   Enforcement Authorities         3327           0         0
   FCS/GSE Mission                 3328           0         0
   Flood Insurance (CMP)           3329           0         0
   Section 508 Compliance          3338           0         0
   Capital/Technical               3345           0         0
   Amendments
   Capital Leverage Ratio          3346           0         0
                           Farm Credit Administration
                           Office of Inspector General
                              Fiscal Year 2006-2007
  PERFORMANCE BY PROJECTS, PRODUCTS AND SERVICES AND PROGRAM
                     ACTIVITIES, FY 2003-2007
                                 Project    FY 2003   FY 2004   FY 2005   FY 2006    FY 2007
Program Activities
                                 Number      Actual    Actual   Revised   Revised   Proposed

   Young, Beginning, and          3349            0         0
   Small Farmers (YBS)
   Loan Syndications              3350            0         0
   Scope and Eligibility          3351            0         0
   Regulatory Burden              3352            0         0
   Solicitation
   Governance of FCS              3353            0         0
   Institutions

1.2 Statutory & Regulatory Approvals              0         0         0         0              0
   Corporate Activity             3204            0         0
   Funding Approvals              3205                      0
   Other Regulatory Approvals     3206            0         0

2.0 Safety and Soundness                          0         0         0         0              0

2.1 Examination                                   0         0         0         0              0
   Examination                   UNINUM           0         0
   Early Warning Analysis          506            0         0
   General Examination            2026            0         0
   OE QA                          2042            0         0
   Program/Vulnerability
   Training Development           2048            0         0
   OE Workshops/Conferences       2050            0         0
   Automated IS Issues            2335            0         0
   Exam Manual Update             2640            0         0
   CMS Activities                 2983            0         0
   Legal Support for OE           3175            0         0
   E-Commerce Task Force          3307            0         0
   OE Modernization Project       3317            0         0
   Commission Test                3320            0         0
   Development
   FAMC Monitoring/Oversight      3366

2.2 Economic, Financial and Risk Analysis         0         0         0         0              0
   Underwriting Standards         2851            0         0
   Ag Land Value Trends           3169            0         0
   Public Reports and Briefing    3170            0         0
   Market Research and            3172            0         0
                         Farm Credit Administration
                         Office of Inspector General
                            Fiscal Year 2006-2007
  PERFORMANCE BY PROJECTS, PRODUCTS AND SERVICES AND PROGRAM
                     ACTIVITIES, FY 2003-2007
                                 Project    FY 2003   FY 2004   FY 2005   FY 2006    FY 2007
Program Activities
                                 Number      Actual    Actual   Revised   Revised   Proposed
   Monitoring
   Board Support Initiatives         3173         0         0
   Other Risk Analysis               3174         0         0
   System Structure Study            3321         0         0

2.3 FCS Data Management                           0         0         0         0              0
   FCS Data Management               3190         0         0
   YBS and OMB Reports               3332         0         0
   LARS Redesign                     3337         0         0

3.0 Implement the President’s Management          0         0         0         0              0
 Agenda

3.1 Strategically manage human capital            0         0         0         0              0

3.2 Upgrade the Agency’s financial                0         0         0         0              0
management system

3.3 Continue the expansion of e-gov’t             0         0         0         0              0

3.5 Give due consideration to competitive         0         0         0         0              0
sourcing

4.0 Reimbursable Activities                       0         0         0         0              0

4.1 SBA                                           0         0         0         0              0
   SBA Project Management            3143         0         0
   SBA Training                      3319         0         0
   SBLC-Commercial Capital       1900701          0         0
   Corporation
   SBLC-Business Loan            1900702          0         0
   Center, Inc.
   SBLC-Grow America Fund,       1900703          0         0
   Inc.
   SBLC-Loan Source, Inc.        1900704          0         0
   SBLC-CIT SBLC                 1900705          0         0
   SBLC-First Western SBLC       1900706          0         0
   SBLC-Amresco                  1900707          0         0
   SBLC-Associated               1900708          0         0
   Commercial Corporation
   SBLC-Small Business Loan      1900709          0         0
   Source, Inc.
   SDBLC-Allied Capital SBLC     1900710          0         0
                           Farm Credit Administration
                           Office of Inspector General
                              Fiscal Year 2006-2007
  PERFORMANCE BY PROJECTS, PRODUCTS AND SERVICES AND PROGRAM
                     ACTIVITIES, FY 2003-2007
                               Project   FY 2003    FY 2004    FY 2005    FY 2006     FY 2007
Program Activities
                               Number     Actual     Actual    Revised    Revised    Proposed

   SBLC-Transamerica           1900711         0          0
   SBLC-Money Store            1900712         0          0
   SBLC-Heller First Capital   1900713         0          0
   Corporation
   SBLC-GE Capital             1900714         0          0

4.2 USDA                                       0          0          0          0               0
   USDA Project Management      3314           0          0
   USDA Training                3343           0          0
   USDA State Office Exams      3344           0          0
   USDA – Alternative           3354           0          0
   Agricultural Research
   Corporation
   USDA – Business Loan        2500001         0          0
   Express
   USDA – B&I Lending          2500002         0          0
   USDA – Carolina Capital     2500003         0          0

4.3 FCSIC                                      0          0          0          0               0
   FCSIC Default Project        2225           0          0
   FCA Support of FCSIC         3279           0          0
   ORM Support FCSIC            3283           0          0

4.4 NCB/NCB Development Corporation            0          0          0          0               0
   FCA Support of NCB           3280           0          0
   FCA Support of NCB           3281           0          0
   Development Corporation
   Legal Counsel NCB            3285           0          0
   Development Corporation
   NCB                         2000100         0          0

5.0 Distributed Costs                    $796,659   $896,937   $951,601   $998,248   $1,008,040

5.1 Budget and Financial Management          $44          0          0          0               0
   Financial Management         3234           0
   Policies
   Budgeting and Analysis       3235          44
   Financial Management         3236           0
   Systems
   Financial Reports and        3237           0
   Statements
                           Farm Credit Administration
                           Office of Inspector General
                              Fiscal Year 2006-2007
  PERFORMANCE BY PROJECTS, PRODUCTS AND SERVICES AND PROGRAM
                     ACTIVITIES, FY 2003-2007
                                 Project   FY 2003    FY 2004   FY 2005   FY 2006    FY 2007
Program Activities
                                 Number     Actual     Actual   Revised   Revised   Proposed

   Accounting Duties              3238           0
   Financial Management           3322           0
   Guidance

5.2 Human Resources Management               $1,545         0         0         0              0
   Training Taken                 3001        1,301
   Personnel and Payroll          3161           0
   Processing
   Compensation and Benefits      3162           0
   Training Administration and    3163         244
   Development
   Staffing and Job Evaluation    3164           0
   Employee Management            3165           0
   Relations
   Training G2                    3222           0
   Training Development G2        3223           0
   Other Administration G2        3225           0
   Structural Streamlining        3334           0
   Bonus Performance              3339           0
   Payments
   FCA Compensation Study         3341           0
   Executive Leadership           3342           0
   Program
   Human Development and          3356           0
   Investment

5.3 Information Resources Management        $15,710         0         0         0              0
   System Development             3229           0
   User Support                   3230           0
   NT and Network                 3231           0
   Management
   Client Systems Management      3232           0
   Database Administration        3233           0
   Agency Laptop                  3309           0
   Replacement
   IT Accessibility Task Group    3310           0
   Lotus Notes R5 Upgrade         3312           0
   IRMOC                          3330           0
                          Farm Credit Administration
                          Office of Inspector General
                             Fiscal Year 2006-2007
  PERFORMANCE BY PROJECTS, PRODUCTS AND SERVICES AND PROGRAM
                     ACTIVITIES, FY 2003-2007
                                 Project   FY 2003    FY 2004   FY 2005   FY 2006    FY 2007
Program Activities
                                 Number     Actual     Actual   Revised   Revised   Proposed

   IRM Planning                   3331           0
   IT Security                    3340           0
   T29 Laptop Replacement         3359       15,710

5.4 Other Legal Counsel                          0          0         0         0              0
   General Litigation             3197           0
   Legal Counsel – Other          3336           0

5.5 Communication                              $15                    0         0              0
   Management Reporting           2308           0
   Design and Duplicating         2663           0
   Borrower Complaints            3156           0
   Symposium – Ag Lending         3167           0
   Economic Seminars and          3171           0
   Conferences
   Government Coordination        3207           0
   System Liaison                 3208          15
   Media and Public Affairs       3209           0
   International Programs         3211           0
   Informational Memoranda        3212           0
   Publication Editing            3214           0
   Meeting Planning               3215           0
   Plain Language Initiative      3216           0
   Internal Communication G2      3219           0
   Internal Communication         3247           0
   FCA Web Site                   3333           0

5.6 Contracting, Procurement, Mail and           0          0         0         0              0
Supply
   Procurement                    3239           0
   Mail Administration            3240           0
   Supplies Administration        3241           0
   Transportation                 3242           0
   Administration

5.7 Board Activities and Board Support        $233          0         0         0              0
   Board Support Initiatives      2357           0
   Board Support Initiatives      2989           0
                            Farm Credit Administration
                            Office of Inspector General
                               Fiscal Year 2006-2007
  PERFORMANCE BY PROJECTS, PRODUCTS AND SERVICES AND PROGRAM
                     ACTIVITIES, FY 2003-2007
                                 Project   FY 2003    FY 2004    FY 2005    FY 2006     FY 2007
Program Activities
                                 Number     Actual     Actual    Revised    Revised    Proposed

   Board Support                  3213           0
   Board Member Activity          3335         233

5.8 Congressional and Intergovernmental          0          0          0          0               0
Affairs
   Congress and Government        3201           0
   Liaison
   Legislative Analysis           3203           0
   Ombudsman Activities           3355           0

5.9 Records Management and Information        $128          0          0          0               0
Services
   Information Center and         3226         128
   Records Management

5.10 Audits and Investigations             $646,197   $896,937   $951,601   $998,248   $1,008,040
   OIG Time                       1425      646,197    896,937    951,601    998,248    1,008,040
   Audit, QA and Internal         3221           0
   Control
   Audit, QA and Internal         3249           0
   Control

5.11 Administration                        $132,787         0          0          0               0
   General Administration         3002         328
   Planning                       3004         351
   Clerical & Admin. Support      3005           0
   Year 2000 Activities           3006           0
   Best Practices                 3059           0
   Year 2000                      3063           0
   Management and                 3160           0
   Supervision
   Management G2                  3217           0
   Planning and Budgeting G2      3218           0
   Clerical & Admin. Support      3220           0
   G2
   Technical Committees           3224           0
   FCS Building Association       3243           0
   Liaison
   Leave                          3244      132,108
   Management G3                  3245           0
                         Farm Credit Administration
                         Office of Inspector General
                            Fiscal Year 2006-2007
  PERFORMANCE BY PROJECTS, PRODUCTS AND SERVICES AND PROGRAM
                     ACTIVITIES, FY 2003-2007
                                 Project   FY 2003    FY 2004    FY 2005    FY 2006     FY 2007
Program Activities
                                 Number     Actual     Actual    Revised    Revised    Proposed

   Planning and Budgeting G3      3246           0
   Clerical and Administrative    3248           0
   Support G3
   Other Administration G3        3250           0
   Ethics Program                 3251           0
   FOIA and Release               3252           0
   Information
   EEO                            3254           0
   Agency Compliance              3287           0
   FCA Mentoring Program          3288           0

5.12 OSMO/Farmer Mac (non-exam                   0          0          0          0               0
activities
   Legal Counsel – OSMO           3276           0          0
   Risk-Based Capital Rule        3277           0          0
   OSMO Activities                3290           0          0
   Farmer Mac Call Reports        3347           0          0
   Farmer Mac Issues              3348           0          0

                                  TOTAL    $796,659   $896,937   $951,601   $998,248   $1,008,040
                                                        Farm Credit Administration
                                                        Office of Inspector General
                                                           Fiscal Year 2006-2007

                                                BUDGET HISTORY SUMMARY, FISCAL YEAR 2003-2005
                                                              FISCAL YEAR 2003                           FISCAL YEAR 2004                              FISCAL YEAR 2005
Object Classification                               Budget        Obligated    Balance          Budget       Obligated         Balance
Awards (1154)                                        2,000.00         831.00    1,169.00         2,000.00         60.00          1,940.00       2,000.00             ---     2,000.00
Travel (2101)                                       12,236.00       1,526.00   10,710.00        15,000.00      3,379.38        11,620.62       15,000.00          24.50     14,975.00
Transportation of Things (2213)                        100.00             ---     100.00         1,000.00            ---         1,000.00       1,000.00             ---     1,000.00
Telephone and Communications Services (2329)           600.00             ---     600.00           600.00        215.40            384.60         600.00         215.40        384.60
Messenger and Courier Services (2335)                  150.00             ---     150.00           150.00            ---           150.00         150.00             ---       150.00
Commercial Printers (2403)                           1,000.00          75.00      925.00         1,000.00        246.00            754.00       1,000.00             ---     1,000.00
Advisory Assistance Services (2510)                 15,000.00       6,719.00    8,281.00        30,000.00      2,449.50        27,550.50       35,000.00             ---    35,000.00
Training (2525)                                      3,500.00       2,631.00      869.00         3,500.00      5,023.15        (1,523.15)       3,500.00       1,569.00      1,931.00
Convenience Check Fees (2524)                              ---        122.53    (122.53)                          77.51            (77.51)            ---            ---           ---
Membership Fees (2526)                                 500.00             ---     500.00           500.00        214.38            285.62         500.00         124.38        375.62
Other Contractual Services (2528)                  128,000.00      77,462.40   50,537.60       115,000.00     89,874.71        35,661.00      119,000.00      81,248.55     37,751.45
Training Government (2535)                           3,000.00       2,010.00      990.00         3,000.00      8,405.00        (5,405.00)       3,000.00       1,860.00      1,140.00
Supplies (2609)                                      2,000.00       1,188.02      811.98         2,000.00        364.38          1,635.62       2,000.00         189.40      1,810.60
Other non-Cash Awards & Gifts (2614)                 1,000.00         859.60      140.40         1,000.00            ---         1,000.00       1,000.00             ---     1,000.00
Subscriptions and Publications (2639)                  500.00         466.98       33.02           500.00        482.18              17.82        500.00         634.60      (134.60)
Non-IT Equipment, Furniture & Fixtures (3109)          500.00         285.44      214.56           500.00        444.00              56.00        500.00             ---       500.00
IT Equipment (3140)                                    800.00             ---     800.00        10,900.00        120.27        10,779.73        1,300.00         763.96        536.04
Software (3143)                                        500.00             ---     500.00           500.00            ---           500.00         500.00             ---       500.00


                                                  $171,386.00    $ 94,176.97   $ 77,209.03    $187,150.00    $100,820.15      $ 86,329.85    $186,550.00    $ 86,629.79    $99,920.21




                                            AVERAGE OF BUDGETED VS OBLIGATED, FY 2003-2005
                                                                  Average                                                                                    Average
Object Classification                              Budgeted      Obligated     Balance        Object Classification                          Budgeted       Obligated      Balance
Awards (1154)                                        2,000.00        447.00       1,553.00    Membership Fees (2526)                             500.00         107.19         392.81
Travel (2101)                                       15,412.00      3,217.85      12,194.15    Other Contractual Services (2528)              115,333.33      87,048.38     28,284.95
Transportation of Things (2213)                        550.00            ---        550.00    Training Government (2535)                       3,000.00       4,995.00     (1,995.00)
Telephone and Communications Services (2329)           933.33        204.88         728.45    Supplies (2609)                                  2,500.00         810.74       1,689.26
Messenger and Courier Services (2335)                  150.00            ---        150.00    Other non-Cash Awards & Gifts (2614)             1,000.00         429.80         570.20
Commercial Printers (2403)                           1,000.00        301.67         698.33    Subscriptions and Publications (2639)              500.00         474.58          25.42
Advisory Assistance Services (2510)                 16,666.67      2,239.67      14,427.00    Non-IT Equipment (3109)                          1,666.67          95.15       1,571.52
Training (2525)                                      8,666.67      6,074.64       2,592.02    IT Equipment (3140)                              5,850.00          33.98       5,816.03
Convenience Check Fees (2524)                              ---        62.20         (62.20)   Software (3143)                                    600.00          90.02         509.98


                                                                                                                           3-Year Average    $172,478.67    $104,508.47    67,880.18
